<html>
<title> - MARKUP OF H.R. 2615, H.R. 2744, H.R. 598, H.R. 2140, H.R. 2023, H.R. 2046, H. RES. 129, H. RES. 372, and H. RES. 345</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 MARKUP OF H.R. 2615, H.R. 2744, H.R. 598, H.R. 2140, H.R. 2023, H.R. 
            2046, H. RES. 129, H. RES. 372, and H. RES. 345

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

                           Serial No. 116-43

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-427PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>                   
                          
                       
                       
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director                   
                   
                          
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                  BILLS AND AMENDMENTS OFFERED EN BLOC

H.R. 2615........................................................     2
Amendment to H.R. 2615 offered by Ms. Omar.......................    37
Amendment to H.R. 2615 offered by Mr. Sires......................    38
Amendment to H.R. 2615 offered by Mrs. Wagner....................    40
Amendment to H.R. 2615 offered by Mr. Engel......................    44
Amendment to H.R. 2615 offered by Mr. McCaul.....................    45
H.R. 2744........................................................    46
H.R. 598.........................................................    48
H.R. 2140........................................................    61
Amendment in the Nature of a Substitute to H.R. 2140 offered by 
  Mrs. Wagner....................................................    64
H.R. 2023........................................................    69
Amendment to H.R. 2023 offered by Mr. Engel......................    76
H.R. 2046........................................................
Amendment to H.R. 2046 offered by Mr. McCaul.....................    83
H.Res. 129.......................................................    84
Amendment in the Nature of a Substitute to H.Res. 129 offered by 
  Mr. Engel......................................................    89
H.Res. 372.......................................................    94
Amendment in the Nature of Substitute to H.Res. 345 offered by 
  Mr. Engel......................................................    99

                                APPENDIX

Hearing Notice...................................................   122
Hearing Minutes..................................................   123
Hearing Attendance...............................................   124

            STATEMENTS FOR THE RECORD FROM COMMITTEE MEMBERS

Statement for the record from Representative Castro..............   125
Statement for the record from Representative Kinzinger...........   127

                             MARKUP SUMMARY

Markup summary for the record....................................   128

 
 MARKUP OF H.R. 2615, H.R. 2744, H.R. 598, H.R. 2140, H.R. 2023, H.R. 
            2046, H. RES. 129, H. RES. 372, and H. RES. 345

                        WEDNESDAY, MAY 22, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:05 p.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Mr. Engel. Pursuant to notice, we meet today to mark up 
nine bipartisan measures. Without objection, all members may 
have 5 days to submit statements or extraneous material on 
today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. The measures are:
    H.R. 2615, the United States-Northern Triangle Enhanced 
Engagement Act. Omar, Sires, Wagner, Engel, and McCaul 
amendments to that;
    H.R. 2744, the USAID Branding Modernization Act;
    H.R. 598, Georgia Support Act;
    H.R. 2140, the Preventing Child Marriage Act with the 
Wagner amendment in the nature of a substitute;
    H.R. 2023, the Protect European Energy Security Act with an 
Engel amendment;
    H.R. 2046, the Energy Diplomacy Act with a McCaul 
amendment;
    House Resolution 129 condemning the Government of Saudi 
Arabia's continued detention and alleged abuse of women's 
rights activists, with an Engel amendment in the nature of a 
substitute;
    House Resolution 372 expressing concern for the United 
States-Turkey Alliance;
    And the Engel amendment in the nature of a substitute to 
House Resolution 345, recognizing widening threats to freedoms 
of the press and expression around the world, reaffirming the 
centrality of a free and independent press to the health of 
democracy, and reaffirming freedom of the press as a priority 
of the United States.
    [The bills and amendments offered en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. At this time, I recognize myself to speak on 
today's business. We have nine good bipartisan bills before us 
today. And I am pleased to support every one of them.
    I want to first mention the United States-Northern Triangle 
Enhanced Engagement Act, which I introduced along with Ranking 
Member McCaul, to address the root causes of migration from El 
Salvador, Guatemala, and Honduras. Mr. McCaul and I visited El 
Salvador in March just as the Trump Administration announced 
that it was cutting off assistance to the Northern Triangle 
countries. We saw firsthand the positive impact that U.S. 
foreign assistance is having in creating much-needed 
opportunities and stemming violence in those countries.
    We need to continue to invest in a safer and more 
prosperous Central America to create more opportunities for the 
people living there. This bill does just that, by authorizing 
$577 million in assistance to Central America. This is a good 
bill, and I urge my colleagues to join me in supporting it.
    Providing foreign assistance both helps people who are both 
in need, and furthers our foreign policy objectives. In El 
Salvador, when Mr. McCaul and I visited programs to teach young 
adults software engineering, it gave me such pride to see the 
USAID logo, which was visible to all.
    So, I am pleased to support the USAID Branding 
Modernization Act, a bill I am proud to co-sponsor with Mr. 
McCaul. This legislation affirms the obligation to brand 
foreign assistance. It is appropriate and requires a 
comprehensive review to ensure that USAID-funded projects are 
appropriately branded in the field.
    Human rights, democracy, and the rule of law are core 
American values and should underpin everything we do overseas. 
So, I am glad that we are considering a number of bills today 
that promote human rights and freedom of expression.
    First, Mrs. Wagner's Preventing Child Marriage Act, which 
recognizes the problem of child marriage, particularly among 
vulnerable refugee populations. Every year, over 10 million 
girls marry before the age of 18. Early marriage denies 
children, especially girls, their right to make vital decisions 
about their well-being, including their health, family, and 
career. Child brides are less likely to finish their education, 
and they are at higher risk for abuse, contracting HIV, and 
dying from pregnancy.
    This bill tackles this issue by encouraging the U.S. to use 
its influence to help ensure that displaced populations have 
the protections and tools to avoid illegal child marriage, work 
that organizations like UNFPA are doing around the world. It is 
a good bill to empower young women and girls, and I am proud to 
support it.
    Next we have House Resolution 129, authored by 
Representatives Frankel and Wagner, which focuses on the unjust 
imprisonment of women's rights activists in Saudi Arabia. We 
must continue to call on the Saudi Government to release these 
women immediately.
    I strongly support this resolution, and I urge my 
colleagues to do the same.
    I will turn now to House Resolution 345, which recognizes 
that freedom of the press is under threat around the world. 
Thank you to Mr. Chabot and Mr. Schiff for their work on this 
legislation. There are far too many violent, shocking examples 
of journalists being imprisoned, tortured, and murdered around 
the world.
    Free press is critical to any democracy. It shines a light 
on corruption and impunity. This resolution condemns threats to 
independent media, and calls on governments to continue to 
address journalists' safety. It has my strong support.
    America's alliances and partnerships are another key code 
of our foreign policy, so I am glad that a number of measures 
in our markup today deal with our allies and diplomacy. The 
Georgia Support Act, authored by Mr. Connolly and Mr. 
Kinzinger, calls for continued U.S. support for Georgia, an 
important U.S. partner. Georgia was invaded by Russia in 2008, 
and the Kremlin continues to attack Georgia through subversive 
disinformation campaigns and cyber attacks.
    H.R. 598 provides Georgia with assistance to combat this 
threat and support its democratic institutions. It is a good 
bill to advance the U.S.-Georgia relationship, and I am glad we 
are moving it forward today.
    The Protect European Energy Security Act also combats 
Russia's increasingly malign encroachment on our European 
partners. The Nord Stream 2 and the TurkStream gas pipelines 
from Russia to Germany and Turkey would increase European 
dependence on Russian energy sources. H.R. 2023 restates our 
opposition to these projects and requires the Administration to 
report on how they impact European security and susceptibility 
to Russian influence.
    Next we have House Resolution 372, a measure I introduced 
with Mr. McCaul, on the U.S.-Turkey relationship. President 
Erdogan has tightened his grip on power and rolled back 
democracy in Turkey. At the same time, he has cozied up to 
Putin and purchased the Russian S-400 air and missile defense 
system.
    Today's resolution condemns Erdogan for his authoritarian 
behavior and calls on Turkey to cancel delivery of the Russian 
weapons system. Of course, they want us to sell them our system 
but we cannot do that if they don't cancel delivery of the 
Russian weapons system. They cannot have it both ways. We 
cannot have a NATO country buying Russian equipment.
    Finally, we have Mr. Wright's Energy Diplomacy Act. For the 
United States to maintain a leading role on the global stage, 
the State Department must be positioned to protect and promote 
favorable energy policies abroad. This bill creates and 
authorizes the creation of a new assistant secretary position 
to lead this charge.
    So, in conclusion, I am pleased to support all of these 
bills. And I would like to thank our members for their hard 
work.
    And I will now recognize our Ranking Member Mr. McCaul of 
Texas for his remarks.
    Mr. McCaul. Thank you, Mr. Chairman.
    Today our committee will mark up six important bills and 
three resolutions. I would like to highlight just a few.
    Northern Triangle. As you mentioned our trip to the 
Northern Triangle, the United States--Northern Triangle 
Enhanced Engagement Act, which I am the lead Republican on, 
increases congressional oversight of foreign assistance to the 
Northern Triangle, and prioritizes security in the role of the 
private sector in supporting economic development efforts.
    We still have the good work of the international law 
enforcement community down there, the FBI, the DEA working to 
combat MS-13, but we also saw many faith-based NGO's as well.
    It addresses, in my judgment, the root-cause drivers of 
illegal migration from Central America and, takes steps to help 
stop the flow at our borders. It also builds on existing 
efforts to increase coordination with Mexico in our efforts to 
curb illegal migration, and combats corruption.
    I understand and share the President's frustration with the 
continued stream of migrants to our southern border, especially 
in my home State of Texas. And we believe we must use all tools 
at our disposal, including foreign assistance, to best address 
this growing crisis. Central American countries can and must do 
more to address their migration flows. And that is why this 
bill will require them to clearly show results with new 
benchmarks, so progress can be tracked and programs modified or 
eliminated, if warranted.
    On the branding bill, I am pleased we are considering the 
USAID Branding Modernization Act. When I talked to Mark Green I 
was--he said, shockingly, that we do not put our United States 
flag on the USAID. I think the branding of our foreign 
assistance is important in winning the hearts and minds of 
people that we are helping, while also pushing back against the 
influence of China and others as they operate overseas.
    USAID Administrator Mark Green currently has limited 
authority to brand humanitarian aid. I believe it is important 
that USAID be able to use its insignia, the American flag, and 
other U.S. agency branding as appropriate in each situation so 
that the recipients of our aid know that it is coming from the 
American people. This bill will expand the toolbox of branding 
capabilities that can be utilized by USAID, and authorizes the 
administrator to use such branding in Food for Peace programs.
    On child marriage I want to thank our vice ranking member 
Ms. Wagner for her bill, the Preventing Child Marriage in 
Displaced Populations Act, which will require the United 
Nations to develop a strategy to address the inhumane practice 
of child marriage in U.S.-administered refugee settlements. I 
fully support this important legislation.
    Also, on energy diplomacy, I would like to congratulate and 
thank Mr. Congressman Wright from my home State of Texas, who 
introduced the Energy Diplomacy Act. This bill ensures the 
State Department has the leadership and discretion needed to 
fulfill the statutory responsibilities related to international 
energy diplomacy.
    Specifically, the bill replaces the Coordinator for 
International Energy Affairs with an Assistant Secretary of 
State for Energy Resources, an elevation requested by the Trump 
administration in August 2017. The assistant secretary will be 
responsible for developing and implementing policies to advance 
U.S. energy interests abroad by managing our relations in 
petroleum, natural gas, biofuels, renewable energy, nuclear and 
other energy resources.
    Further, it requires State to use diplomacy to support the 
development of U.S. energy resources to bolster our energy 
security for our economy and support our allies.
    When it comes to Turkey, Mr. Chairman, I appreciate you 
working with me on this resolution. I am the lead Republican on 
it. That expresses our concern for the U.S.-Turkey partnership 
and NATO Alliance. This resolution States that the House fully 
supports the U.S. offer to sell Turkey our Patriot system, and 
condemns Turkey's decision to acquire the Russian S-400 air and 
missile defense system.
    The time has come to put Turkey on notice that if they 
acquire the S-400 system, Congress will no longer support 
Turkey's participation in the F-35 program. We want to see 
Turkey have a course correction and make the better choice.
    And, as you stated, Mr. Chairman, as a NATO ally who was 
brought into the NATO Alliance that was built upon the premise 
of aligning against the Soviet Union, it seems incomprehensible 
to me that Turkey, a NATO ally, would buy a Russian S-400 
system. This is not acceptable to this committee or to the 
Administration. And I want to thank you, sir, for introducing 
this resolution.
    With that, I yield back.
    Mr. Engel. Thank you, Mr. McCaul. I agree with your 
sentiments about Turkey wholeheartedly. Thank you for making 
them.
    Any other members seeking recognition? I think Mr. Sires?
    Mr. Sires. Yes.
    Mr. Engel. OK.
    Mr. Sires. Yes. On my amendment?
    Mr. Engel. Yes.
    Mr. Sires. OK. Thank you, Chairman Engel, and Ranking 
Member McCaul, for their bipartisan cooperation to make this 
markup possible. I want to speak briefly about an amendment I 
have introduced to the United States-Northern Triangle Enhanced 
Engagement Act.
    First, let me just say that I am a strong supporter of 
continuing U.S. assistance to the Northern Triangle. And that 
is why I am a regular co-sponsor of the underlying bill 
introduced by the chairman and ranking member. I have seen 
firsthand in my trips to the region that our programs have been 
effective in reducing violence and poverty in Honduras, El 
Salvador, and Guatemala. I have many constituents with close 
ties to the Northern Triangle who remind me about the 
difficulties they faced before coming here, and the challenges 
the rest of their families continue to endure.
    I believe the cuts announced by the Department of State in 
March are short-sighted and counterproductive. Implementing 
these cuts would do great harm in these countries, while 
undermining our economic and security interests.
    That said, I do believe that we need to always be looking 
for ways to improve our foreign assistance program. I have long 
felt that we need to maximize the proportion of our funding 
that actually reaches the people of these countries. My 
amendment will ask the Secretary of State to report how much of 
our assistance is spent in country versus outside the target 
countries.
    It would also urge the Secretary of State to prioritize 
programs and activities that will be implemented within the 
target countries, rather than externally by foreign 
organizations.
    It is crucial that our assistance builds local capacity and 
strengthens local institutions. I believe this amendment will 
help to ensure that the citizens and local leaders in Honduras, 
Guatemala, and El Salvador, are the true leaders in the 
countries' development. And I urge my members to support it.
    Thank you, and I yield back.
    Mr. Engel. Thank you, Mr. Sires.
    Mr. Chabot, did you want to?
    Ms. Chabot. Thank you, Mr. Chairman.
    I want to discuss just three of the measures here. And I 
will try to do it briefly.
    First, as co-chair of the Freedom of the Press Caucus with 
Congressman Adam Schiff, I would urge my colleagues to support 
H.Res. 345, which we introduced for World Press Freedom Day 
earlier this month to call attention to the troubling State of 
press freedom around the world.
    Access to accurate journalism that holds governments 
accountable is the indispensable tool that allows citizens to 
exercise oversight over their government. Whether we think of 
China, or Russia, or one of the other smaller dictatorships, or 
even a few of our allies and partners throughout the world, 
freedom of the press is too frequently under threat, and in 
many places simply non-existent.
    Unless the United States fights to protect press freedom, 
authoritarians around the world will stifle it, as China is 
doing right now in exporting its tools for internet censorship, 
for example. Our founding fathers were right to provide us with 
strong protections for the press in the First Amendment, and I 
am glad to live in America where we still have a press to keep 
us honest, even though they are capable of sometimes reporting 
on occasion what some would call fake news.
    Unfortunately, access to free and independent journalism 
seems to be associated with pretty much most of the other 
problems we face in this committee, whether it is authoritarian 
dictators seeking to retain their grip on power or 
disinformation or corruption, or simply bring the light to the 
many human rights abuses of bad actors. So, I think it is an 
issue that we need to keep our eye on.
    And I want to thank Chairman Engel and Ranking Member 
McCaul for considering this resolution.
    Second, I would like to comment briefly on H.Res. 372 which 
expresses concern for the U.S.-Turkey Alliance. As co-chair of 
the Turkey Caucus, along with my good friend Joe Wilson, as 
well as my friends on the other side of the aisle Gerry 
Connolly and Steve Cohen, I really hoped that this would not 
come to this. When we take a step back from several sticking 
points between us and look at the relationship as a whole, it 
is easy to see why our alliance with Turkey furthers our 
numerous interests in that part of the world.
    Unfortunately, Turkey's impending purchase of the S-400 
antiaircraft system from Russia is very damaging for the 
relationship. And I hope they understand our position in this 
matter and why we think that this weapons sale is so totally 
unacceptable. I hope that President Erdogan ultimately makes 
the right choice and that the Trump administration works with 
Turkey to get them Patriot missiles to provide for their air 
defense needs.
    And, finally, I want to thank Mr. Connolly and Mr. 
Kinzinger for their work on the Georgia Support Act. As a co-
sponsor of this important legislation I just want to say that 
Georgia is an important and valued partner that shares our 
values and is eager to cooperate with the U.S. and the West.
    Russia poses a serious challenge to all of us, but 
especially Georgia, not to mention that Vladimir Putin still 
illegally occupies Abkhazia and South Ossetia. This legislation 
will go a long way toward helping Georgia with some of these 
challenges.
    And I would urge my colleagues to support this and the 
other two pieces of legislation that I mentioned. And I yield 
back. Thank you.
    Mr. Engel. Thank you, Mr. Chabot.
    Mr. Connolly.
    Ms. Connolly. Thank you, Mr. Chairman. And thank you and 
Mr. McCaul for bringing this package of nine bills to the 
committee for its consideration and for handling it in the 
bipartisan comity we are so used to. I thank you.
    In particular, I want to thank both of you for including 
H.R. 598, the Georgia Support Act, which I introduced with my 
Republican counterpart on the Georgia Caucus, Mr. Adam 
Kinzinger. This bill asserts the United States' continued 
support for the independence and sovereignty of Georgia. It 
supports Georgia's continued democratic development, including 
free and fair elections, and reaffirms U.S. opposition to 
Russian aggression in the region.
    In Georgia's occupied regions of South Ossetia and 
Abkhazia, Russia has fomented unrest, aided separatist 
movements, and committed serious human rights abuses, including 
ongoing detentions and killings. Russian forces continue to 
harass civilian communities all along the administrative 
boundary line, and impede the right of return of the internally 
displaced persons within their own country.
    H.R. 598 bolsters Georgia's territorial integrity by 
authorizing sanctions against those responsible for or 
complicit in human rights violations in those occupied parts of 
Georgia. As the chairman to the U.S. Delegation to the NATO 
Parliamentary Assembly I am pleased that the Georgia Support 
Act also recognizes that Georgia has been a longstanding NATO 
aspirant country. I traveled to Georgia three times in as many 
years, including for the spring meeting of NATO's Parliamentary 
Assembly, and believe Georgia is a key partner for NATO 
security, and Georgia has had troops in Afghanistan side by 
side with those of our own.
    Georgia Support Act builds on previous efforts that 
Congress has undertaken to support Georgia's territorial 
integrity. In the Countering America's Adversaries Through 
Sanctions Act we, Congress enshrined a non-recognition policy 
for Russia's illegal occupation of South Ossetia and Abkhazia 
in Georgia.
    In the 114th Congress, the House passed H.Res. 660 which 
Judge Poe and I introduced to express support for Georgia's 
territorial integrity. That resolution was a clear and 
unequivocal Statement in support of the sovereign territory of 
Georgia, and reiterated the longstanding policy of the U.S. 
Government not to recognize territorial changes effected by 
force, as dictated by the Stimson Doctrine established in 1932.
    The Georgia Support Act is a timely expression of 
congressional support for the vital U.S.-Georgia partnership, 
which is a strategically important relationship in a critical 
part of the world. As we approach Georgia's independence day 
next week, I urge my colleagues to support this bill which 
reasserts U.S. support for Georgia's sovereignty and clear and 
forceful opposition to the illegal Russian invasion of Georgian 
territory and occupation of same.
    As the House of Representatives recently passed a Crimean 
Annexation Non-Recognition Act, which my friend Mr. Chabot and 
I have introduced in every Congress since the illegal 
annexation of Crimea, the Georgia Support Act is another clear 
and unequivocal Statement by this Congress on the issue of 
territorial sovereignty, especially in the eastern part of 
Europe.
    With that I yield back, and thank the chair again.
    Mr. Engel. Thank you, Mr. Connolly.
    Mr. Wilson.
    Ms. Wilson. Thank you, Chairman Engel and Republican Leader 
McCaul, for bringing these crucial bills to a mark. Each one of 
the bills is a testimony to this committee's long tradition of 
tackling some of the world's thorniest issues and challenges 
with bipartisan cooperation.
    I urge my colleagues to support all the measures before us 
today. I will speak on three of them in the time that I have.
    First I would like to speak in support of H.R. 598, the 
Georgia Support Act, introduced by the co-chairs of the Georgia 
Caucus, Mr. Connolly from Virginia, and Mr. Kinzinger from 
Illinois. While Georgia successfully achieved independence in 
1991, Moscow is still to this day attempting to bully this 
small nation. In 2008, Russian troops invaded the country, 
seizing nearly a third of Georgia's territory, which they still 
occupy today.
    The Georgia Support Act is to help our friends in Georgia 
repel ongoing Russian aggression by bolstering their defenses 
as well as their cyber security and capabilities to combat 
Russian disinformation campaigns. Importantly, this bill 
sanctions Russian perpetrators of human rights violations in 
the occupied regions of Georgia. This is a comprehensive bill 
that will send a direct message to the Kremlin: we will always 
stand side by side with Georgia in defense of its territorial 
integrity and God-given rights and freedoms.
    Unfortunately, Vladimir Putin would like to see all of the 
liberated former Soviet States returned to Moscow's orbit. He 
attempts to exert his control over these nations through energy 
blackmail. That is why I strongly support my colleagues to 
support H.R. 2023, Protect European Energy Security Act 
introduced by Mr. Heck of Washington. This bill makes it clear 
that Congress opposes Nord Stream 2 pipeline and other energy 
schemes of Russia in northern Europe that seek to make our 
European allies further beholden to Moscow's energy resources.
    As co-chair of the European Union Caucus, along with my 
colleague Mr. Meeks of New York, I believe there is no greater 
challenge to European security today than energy security and 
Russia's ongoing blackmail.
    I would also like to express my support for House 
Resolution 129, which highlights Saudi Arabia's troubling 
detention and persecution of women's rights activities, and 
urging Riyadh to immediately and unconditionally release these 
advocates and other political prisoners. Just last week we 
marked the 1-year anniversary of Aziza al-Yousef's detention by 
Saudi authorities. Aziza is a mother of five, grandmother of 
eight, and a legal U.S. permanent resident. She was arrested, 
tortured, and is facing trial for advocating for basic human 
rights. These kinds of arrests fly in the face of Saudi 
Arabia's stated Social Reform Bills as part of Vision 2030.
    Persecution of human rights defenders anywhere is 
reprehensible, and I thank Representative Frankel for her 
leadership on this issue.
    Last, as co-chair of the Turkey Caucus I am increasingly 
concerned about our relationship with Ankara. Turkey is an 
appreciated, strategically important NATO ally. Its decision to 
buy the Russian S-400 missile system is troubling and, in my 
opinion, indicative of the current government's disdain for our 
shared values and Turkey's democratic foundations.
    To think that they are now thinking of collaborating with 
Russians on an S-500 system just confirms this to me and 
others. I will continue to advocate for improved ties between 
Washington and Ankara, but the S-400 purchase is not only 
unhelpful to this end, but damaging and dangerous. I call on 
the Turkish Government to cancel this purchase and recommit to 
its mutually beneficial role in the NATO Alliance. I urge my 
colleagues to support House Resolution 372.
    Thank you, Mr. Chairman. I yield back.
    Mr. Engel. Thank you, Mr. Wilson.
    Ms. Omar.
    Ms. Omar. Thank you, Mr. Chairman and Mr. McCaul, for 
introducing H.R. 2615. The amendment I offer today is designed 
to enhance our engagement with human rights in the Northern 
Triangle. It does three simple things.
    First, it expands the list of human rights abuses and the 
reporting required, to include torture, forced disappearance, 
and arbitrary detentions. Particularly in Honduras and 
Guatemala these are driving forces of migration and betrayal of 
universal human rights, and we must be clear about stopping 
them.
    Second, my amendment adds to the reporting requirements, 
descriptions of measures taken by the Northern Triangle 
governments to guarantee the rights of indigenous and rural 
communities. Indigenous people in Guatemala and Honduras are 
particularly vulnerable to those governments. And we should 
insist that the governments of those countries are abiding by 
their international obligations, including the ILO 169. This 
means free, prior, and informed consent from communities before 
mega-projects are built in their territories.
    This includes the Garifuna, the Lenca, the Mayas, and the 
Campesino communities I met in Pajulies, in La Esperanza, and 
Tela. It means actual protection for indigenous and rural land 
and water defenders, and not the impunity we see in both of 
these countries.
    Finally, my amendment addresses the language of human 
rights conditionality in the bill to reflect what the 
appropriation included in this bill. It is strengthening the 
language on conditionality from effective steps in the alliance 
of prosperity to meeting the following conditions. It is a way 
to guarantee that our human rights conditions will have the 
peace they need to be genuinely per--to be genuinely be 
persuasive to the Northern Triangle governments.
    I was in Honduras for the 2017 elections, and followed 
closely both the credible accusations of fraud and the 
widespread human rights abuses that followed. Like so many 
Americans, I was deeply disappointed to see the State 
Department certify that effective steps were being taken to 
improve human rights in Honduras at the same moment protestors 
were being gunned down in the streets.
    This amendment will ensure that that certification will be 
based on the actual enjoyment of human rights by El 
Salvadoreans, Guatemalans, and Honduran people, and not allow 
the government of Juan Orlando Hernandez and Jimmy Morales to 
game the system and continue in impunity.
    I also want to add that this committee needs to take a 
closer look at the role State violence is playing in the exodus 
from Guatemala, and especially in Honduras. I am very pleased 
that this bill takes that seriously, and I am happy to support 
it.
    I also think we need to go one step further. And as an 
original co-sponsor of H.R. 1945, the Berta Caceres Human 
Rights in Honduras Act, I would strongly encourage this 
committee to bring that bill up for markup.
    Once again, I thank you, Mr. Chairman and Ranking Member, 
for your leadership in this crucial issue, and I yield back.
    Mr. Engel. Thank you, Ms. Omar.
    Mrs. Wagner.
    Mrs. Wagner Mr. Chairman, I would like o thank you and 
Ranking Member McCaul for working with me on H.R. 2140, the 
Preventing Child Marriage in Displaced Populations Act, and my 
amendment to combat violence against women and children in 
Central America.
    Last week in our capacities as co-chairs of the Central 
America Caucus, Representative Norma Torres and I introduced 
H.R. 2935, the bipartisan Central American Women and Children 
Protection Act. My amendment incorporates this legislation into 
today's Central America engagement bill.
    Central America is sadly ranked high among regions of the 
world for femicide. El Salvador and Honduras are among the top 
three countries in the world with the highest child homicide 
rates. Northern Triangle governments allow impunity for 
perpetrators of violence, with less than 10 percent of reported 
cases resulting in conviction.
    In April I visited Guatemala and met women and young girls 
who told me their deeply personal stories of sexual and 
domestic violence. These women are driven and they yearn for 
opportunity to build a better life at home so they can safely 
grow a family and improve their communities. The mothers that 
we met with within the country's impoverished western highlands 
wanted to keep their families together at home. A 1,500 mile 
journey to our border with limited food and water is 
particularly dangerous for women and girls who are at severe 
risk of violence.
    These women did not view migration as a solution. And they 
are banding together to root out poverty and fix failing 
justice systems so their families have economic opportunities. 
Eliminating the root causes of the migration crisis at our 
border entails standing with these women.
    My amendment today would authorize the President to enter 
into bilateral compacts with the governments of El Salvador, 
Guatemala, and Honduras to strengthen the justice systems of 
those countries and to create safer communities for women and 
children.
    Today I am also urging my colleagues to support H.R. 2140, 
the Preventing Child Marriage in Displaced Populations Act. 
Humanitarian crises put women and girls at a much higher risk 
of violence and exploitation, including child marriage. Nine of 
the ten countries with the highest rates of child marriage are 
fragile States where weak institutions, high rates of violence, 
and stagnant economies make families more likely to resort to 
child marriage to keep their daughters safe and provide for 
their futures.
    Important research conducted by UNICEF revealed that in 
2018 more than 700 million women and girls worldwide were 
married before their 18th birthday. And of these, 250 million 
were married before their 15th birthday. These women are more 
likely to experience domestic violence and have worse 
educational, economic, and health prospects than their 
unmarried peers. But even though rates of child marriage are on 
the rise in U.N.-administered refugee camps, the U.N. has yet 
to adopt a formal definition of child marriage, or a 
comprehensive strategy to address the problem in these 
settlements.
    This important piece of legislation would direct the United 
States to lead U.N. efforts to adopt a definition of child 
marriage and craft a comprehensive strategy to address child 
marriages in unadministered refugee settlements. The strategy 
would include protocols to prevent and monitor child marriages, 
programs to provide physical, mental, and emotional support for 
victims, programs offering alternatives for child marriage, and 
measures to ensure that adults participating in illegal child 
marriages are held accountable.
    Child marriage is a violation of human rights and a form of 
violence against women. And I urge my colleagues to support the 
Preventing Child Marriage in Displaced Populations Act. And I 
yield back.
    Mr. Engel. Thank you.
    Would any other members like some time? Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chairman.
    The barriers that girls and women face do not exist in a 
vacuum. A woman's right to education, to her bodily autonomy, 
to self-determination, they are all connected. And we must work 
with our allies and global organizations to help women and 
girls achieve true and lasting change.
    Initiatives like the U.N. Joint Program to End Child 
Marriage, which the UNFPA and UNICEF lead jointly, are looking 
at this issue holistically. They are working to make the social 
protection, health, education, social, and behavioral changes 
needed to build a truly equitable world for women. And in spite 
of these important efforts, the United States is not currently 
contributing funds to the Joint Program.
    I am grateful to my colleague from Missouri for introducing 
the Preventing Child Marriage Act, and I urge the other members 
of this committee to support this very important legislation 
that will bolster and affirm the good work of the United 
Nations to end child marriage.
    I want to note the important leadership role under UNFPA in 
this effort. Although the legislation does not mention them by 
name, they are driving important change through initiatives 
like the Joint Program.
    Finally, Mr. Chairman, access to quality education is one 
of the strongest tools that we have for combating the epidemic 
of childhood marriage. And that is why, in addition to 
supporting Ms. Wagner's bill, I am also an original co-sponsor 
of the Keeping Girls in School Act, a bipartisan act introduced 
by Representatives Frankel and Brooks, legislation that would 
empower girls by increasing their educational and economic 
opportunities and security. Girls and women deserve to be 
educated, to be economically independent, to be the deciders of 
their own fates. And that is what we believe in the United 
States and what we need to fight for in all corners of the 
world.
    Chairman Engel and Ranking Member McCaul, I hope that this 
committee will take further steps in the effort to end child 
marriage and to promote gender equality by marking up the 
Keeping Girls in School Act as soon as possible.
    Thank you, Mr. Chairman. And I yield back the balance of my 
time.
    Mr. Engel. Thank you, Ms. Houlahan.
    Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman. I want to thank you 
and leader McCaul for agreeing to include my bill H.R. 2046, 
the Energy Diplomacy Act, in today's markup. I would also like 
to thank the lead Republican and Representative Gonzalez of 
Texas, and the bill's original co-sponsors, for their support.
    Since 1977, when Congress formally gave the Secretary of 
State primary authority over energy-related foreign policy 
there have been significant changes in the global energy 
landscape. The United States is now the world's top producer of 
petroleum and natural gas.
    We have also seen increased weaponization of energy by 
Russia against our EU and NATO allies, transforming energy into 
a critical national security issue. This new challenge requires 
reaffirmed dedication and focus.
    The Energy Diplomacy Act does just that by authorizing an 
Assistant Secretary of State for Energy Resources, and defining 
our energy security and diplomatic priorities. My bill will 
ensure the State Department has adequate personnel to carry out 
its mandate and protect and advance the energy security 
interests of the United States, as well as those of our allies 
abroad.
    Finally, this bill advances U.S. energy exports by 
instructing our diplomats to work in tandem with U.S. energy 
companies operating abroad. Combating Russia's malign influence 
in Europe has been at the forefront of the committee's agenda 
this year, and I firmly believe pushing back on their energy 
dominance in Europe must be part of our strategy.
    Thank you again, Chairman and Ranking Member, for including 
my bill today. I urge my colleagues to support this bill as 
part of the en bloc, and yield back the balance of my time.
    Mr. Engel. Thank you very much.
    Mr. Allred. No.
    OK. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. And thank you for the 
bipartisan collegiality this committee has been run with that 
has led to not only excellent bills but bills that I think have 
unanimous support.
    As to the Northern Triangle bill, it is ripping our country 
apart to deal with the refugees from Central America. There is 
no better investment we can make in American unity than to 
allow people in the Northern Triangle countries to live where 
they want to live, which is in their own country in peace, 
security, and prosperity.
    As to the USAID branding bill, it is so important that we 
not only aid countries but that we make sure they know this is 
a gift from the American people. We have often called this the 
``flag on the bag'' requirement or objective when we send bags 
of food.
    As to the Georgia support act, I strongly support it. And I 
am pleased that USAID has assured me that an appropriate amount 
of aid will go to the Samtskhe-Javakheti region in southern 
Georgia.
    As to preventing child marriage, a very important bill. 
Particularly I am focused on the Sindh area of Pakistan where 
we see non-Muslim girls kidnapped, converted, and then forced 
into child marriage. This bill is one small step to deal with 
that.
    As to condemning Saudi Arabia, we not only have to condemn 
Saudi Arabia, but I have legislation that I hope will be marked 
up in this committee to act to prevent Saudi Arabia from 
developing a nuclear weapon.
    And, of course, we are all concerned about Turkey. If they 
are cooperating with Russia with regard to an S-400, and even 
worse, the development of an S-500 rocket, that is inconsistent 
with their membership in NATO. I yield back.
    Mr. Engel. Thank you. Are there any other members that wish 
to speak?
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    I speak in support of House Resolution 129, condemning the 
Government of Saudi Arabia's continued detention and alleged 
abuse of women's rights activists.
    Saudi Arabia has been an important strategic partner of the 
United States and we share broad interests, including the 
defeat of ISIL in Iraq and Syria. But as much as our interests 
align, those interests are diluted by a divergence concerning 
women's rights.
    I wanted to give Saudi leadership the benefit of the doubt 
when we were told that there would be great social reform, 
especially with respect to women's rights. I wanted to give 
Saudi Arabia the benefit of the doubt when women finally got 
the right to drive. But the disparate impact of Saudi Arabia's 
male guardianship system, which requires women to obtain 
permission of their male guardians in healthcare, employment, 
and travel decisions, is still felt to this day.
    The imprisonment of women's rights advocates and the 
unwarranted psychological and physical abuse is even more 
upsetting. It has become clear the Saudi leadership largely 
seeks to maintain the status quo. That is unacceptable. We 
cannot just hold our adversaries accountable for humanitarian 
abuses, we must also demand accountability of our strategic 
partners.
    This resolution is an important reaffirmation that human 
rights and democracy are bedrocks of the United States' foreign 
policy and that it necessarily requires advancing the rights 
and empowerment of women and girls. For as long as I have the 
privilege of serving in Congress I will continue to reaffirm 
those bedrock principles.
    I urge a yes vote on this resolution. Thank you, Mr. 
Chairman. I yield back.
    Mr. Engel. Thank you.
    Mr. Phillips.
    Mr. Phillips. Thank you, Chairman Engel and Ranking Member 
McCaul, and all my colleagues for this very important slate of 
bills and resolutions. I wish the news media would be as 
interested in this kind of work instead of focused on the 
distractions and divisions in this country.
    And I just wanted to do a special shout-out to Ranking 
Member McCaul for H.R. 2744, probably the smallest bill in this 
package but an important one, because despite our 
imperfections, the United States of America does a lot of good 
around the world. And I like the fact that now USAID can 
express that to the beneficiaries and to people in the world 
who are not as familiar with our good work as I wish they were, 
and prospectively I hope they will be.
    So, my salutations and gratitude. And I yield back.
    Mr. Engel. Thank you.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    I speak in support of Ms. Wagner's bill, H.R. 2140, which 
advances the fight against child marriage at the United 
Nations. But I do remain disappointed that the U.S. currently 
doesn't contribute to the U.N.'s Joint Program to End Child 
Marriage, especially due to the bipartisan support reflected by 
this measure.
    This bill highlights the great work of the United Nations, 
in particular UNICEF and UNHCR. But I would also note that 
UNFPA is working alongside UNICEF and UNHCR in refugee settings 
to prevent child marriage. UNFPA is meeting the unique health 
needs, legal, and psychological needs of child brides and young 
mothers.
    I had the chance to see firsthand when I visited the 
Zaatari refugee camp in Jordan where you have tens of thousands 
of Syrian refugees. You see UNFPA working alongside UNICEF 
running a comprehensive women's health center that started with 
U.S. spending. They delivered more than 10,000 babies without a 
single maternal death, an incredible achievement by any 
measure.
    Zaatari is home to tens of thousands of Syrian refugees. 
Syria is an enduring problem that the United States is still 
grappling with, as our full committee hearing showed this 
morning. The UNFPA study referenced in today's bill showed that 
child marriage among displaced Syrians is four times higher 
than what it was before the crisis broke out in 2011.
    So, this health center also delivers counseling, legal 
referrals, and psychological care to the girls who are in child 
and forced marriages. Child marriage often marks the end of a 
girl's education and the beginning of their life as a mom 
before she is physically or mentally ready.
    I was also glad to see the U.N.'s focus on child marriage 
prevention. In Zaatari, the U.N. supports schooling but also 
programs for young people in art, sports, cooking, computer 
skills, and language. So, I am happy to see support for the 
U.N. Joint Program on Child Marriage mentioned in this bill. It 
is important that the U.S. support the U.N. and their NGO 
partners working on these issues.
    And I want to emphasize that we should not be pulling 
funding from the very agencies serving women and girls, namely 
UNFPA. We should stand proudly with all our U.N. partners who 
do this work every day.
    And with that, Mr. Chairman, I yield back.
    Mr. Engel. Thank you very much.
    Are there any other members seeking recognition?
    [No response.]
    Mr. Engel. OK, hearing no further requests for recognition 
then, without objection, the committee will proceed to consider 
the noticed items en bloc.
    Without objection, each measure is considered as read.
    And without objection, the amendments to each are 
considered as read and are agreed to.
    Without objection, the question occurs on the measures en 
block, as amended.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc. And without objection, each measure in the 
en bloc is ordered favorably reported, as amended. And each 
amendment to each bill shall be reported as a single amendment 
in the nature of a substitute.
    I want to thank you very much. This concludes our business 
today. I want to especially thank Ranking Member McCaul and all 
the committee members for their contributions and assistance 
with today's markup.
    The committee stands adjourned.
    [Whereupon, at 2:54 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
